<html>
<title> - NOMINATIONS OF: GRANT D. ALDONAS, KENNETH I. JUSTER, MARIA CINO, AND ROBERT GLENN HUBBARD</title>
<body><pre>[Senate Hearing 107-329]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-329
 
                            NOMINATIONS OF:
                  GRANT D. ALDONAS, KENNETH I. JUSTER,
                  MARIA CINO, AND ROBERT GLENN HUBBARD
=======================================================================


                                HEARING

                               before the

                              COMMITTEE ON
                   BANKING,HOUSING,AND URBAN AFFAIRS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                                   ON

                            NOMINATIONS OF:

      GRANT D. ALDONAS, OF VIRGINIA, TO BE UNDER SECRETARY OF THE
                   INTERNATIONAL TRADE ADMINISTRATION
                      U.S. DEPARTMENT OF COMMERCE
                               __________

             KENNETH I. JUSTER, OF THE DISTRICT OF COLUMBIA
                 TO BE UNDER SECRETARY OF THE BUREAU OF
           EXPORT ADMINISTRATION, U.S. DEPARTMENT OF COMMERCE
                               __________

         MARIA CINO, OF VIRGINIA, TO BE ASSISTANT SECRETARY AND
     DIRECTOR GENERAL, UNITED STATES AND FOREIGN COMMERCIAL SERVICE
                      U.S. DEPARTMENT OF COMMERCE
                               __________

                ROBERT GLENN HUBBARD, OF NEW YORK, TO BE
              CHAIRMAN OF THE COUNCIL OF ECONOMIC ADVISERS
                               __________

                             APRIL 24, 2001
                               __________

  Printed for the use of the Committee on Banking, Housing, and Urban 
                                Affairs


                    U.S. GOVERNMENT PRINTING OFFICE
78-159                       WASHINGTON : 2002
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001






            COMMITTEE ON BANKING, HOUSING, AND URBAN AFFAIRS

                      PHIL GRAMM, Texas, Chairman

RICHARD C. SHELBY, Alabama           PAUL S. SARBANES, Maryland
ROBERT F. BENNETT, Utah              CHRISTOPHER J. DODD, Connecticut
WAYNE ALLARD, Colorado               TIM JOHNSON, South Dakota
MICHAEL B. ENZI, Wyoming             JACK REED, Rhode Island
CHUCK HAGEL, Nebraska                CHARLES E. SCHUMER, New York
RICK SANTORUM, Pennsylvania          EVAN BAYH, Indiana
JIM BUNNING, Kentucky                ZELL MILLER, Georgia
MIKE CRAPO, Idaho                    THOMAS R. CARPER, Delaware
JOHN ENSIGN, Nevada                  DEBBIE STABENOW, Michigan
                                     JON S. CORZINE, New Jersey

                   Wayne A. Abernathy, Staff Director
     Steven B. Harris, Democratic Staff Director and Chief Counsel
           Brian J. Gross, Deputy Staff Director and Counsel
                      Linda L. Lord, Chief Counsel
           Amy F. Dunathan, Senior Professional Staff Member
                       Tom Loo, Senior Economist
             Martin J. Gruenberg, Democratic Senior Counsel
                       George E. Whittle, Editor

                                  (ii)








                            C O N T E N T S

                              ----------                              

                        TUESDAY, APRIL 24, 2001

                                                                   Page

Opening statement of Chairman Gramm..............................     1

Opening statements, comments, or prepared statements of:
    Senator Schumer..............................................     6
        Prepared statement.......................................    13
    Senator Santorum.............................................     7
    Senator Hagel................................................     9
    Senator Corzine..............................................    11

                                NOMINEES

Grant D. Aldonas, of Virginia, to be Under Secretary, 
  International Trade Administration, U.S. Department of Commerce     2
    Prepared statement...........................................    13
    Biographical sketch of nominee...............................    16
    Response to written questions of Senator Schumer.............    70
Kenneth I. Juster, of the District of Columbia, to be Under 
  Secretary, Bureau of Export Administration, U.S. Department of 
  Commerce.......................................................     4
    Prepared statement...........................................    25
    Biographical sketch of nominee...............................    26
Maria Cino, of Virginia, to be Assistant Secretary and Director 
  General,
  United States and Foreign Commercial Service, U.S. Department 
  of
  Commerce.......................................................     5
    Prepared statement...........................................    38
    Biographical sketch of nominee...............................    40
Robert Glenn Hubbard, of New York, to be Chairman of the Council 
  of
  Economic Advisers..............................................     6
    Prepared statement...........................................    45
    Biographical sketch of nominee...............................    46

                                 (iii)






                            NOMINATIONS OF:

                     GRANT D. ALDONAS, OF VIRGINIA
                        TO BE UNDER SECRETARY OF
                 THE INTERNATIONAL TRADE ADMINISTRATION
                      U.S. DEPARTMENT OF COMMERCE
                              ----------                              

             KENNETH I. JUSTER, OF THE DISTRICT OF COLUMBIA
                        TO BE UNDER SECRETARY OF
                  THE BUREAU OF EXPORT ADMINISTRATION
                      U.S. DEPARTMENT OF COMMERCE
                              ----------                              

                        MARIA CINO, OF VIRGINIA
                     TO BE ASSISTANT SECRETARY AND
                  DIRECTOR GENERAL, UNITED STATES AND
                       FOREIGN COMMERCIAL SERVICE
                      U.S. DEPARTMENT OF COMMERCE
                              ----------                              

                   ROBERT GLENN HUBBARD, OF NEW YORK
                    TO BE CHAIRMAN OF THE COUNCIL OF
                           ECONOMIC ADVISERS
                              ----------                              

                        TUESDAY, APRIL 24, 2001

                                       U.S. Senate,
          Committee on Banking, Housing, and Urban Affairs,
                                                    Washington, DC.

    The Committee met at 3 p.m., in room SD-538 of the Dirksen 
Senate Office Building, Senator Phil Gramm (Chairman of the 
Committee) presiding.

            OPENING STATEMENT OF CHAIRMAN PHIL GRAMM

    Chairman. Gramm. Let me call the Committee to order. The 
first thing I should do is introduce our panel, then administer 
the oath, and then I will ask each of you to make an opening 
statement. I would like to ask you to keep it within 5 minutes, 
but if you run over a little, I am not going to stop you.
    I would first like to introduce Grant Aldonas of Virginia. 
He is nominated by the President to be Under Secretary of 
Commerce for International Trade. I have known Grant and worked 
with him on the Finance Committee, I am very pleased that you 
have been nominated for this position. Opposing protectionism 
and promoting free trade is God's work, and as should be true 
in all of God's noble efforts, there should be little 
compromise and much effort.
    Our next nominee is Ken Juster of the District of Columbia. 
He is nominated to be Under Secretary of Commerce for Export 
Administration. Ken, let me welcome you before the Senate 
Banking Committee.
    As you know, we have reported the Export Administration 
Act. It represents a major modernization of an important law 
that expired in 1995, and we hope to see this bill passed into 
law this year. We expect you to be effective in promoting 
American exports and protecting American technology under this 
new law, and I look forward to working with you.
    Maria Cino of Virginia to be Assistant Secretary of 
Commerce and Director General of the United States and Foreign 
Commercial Service. Let me say that one of our Members, Rick 
Santorum, is going to be here at some point, and when he 
arrives, we will give him an opportunity to introduce you.
    Let me say to Ken Juster that Senator Chuck Schumer is 
inserting in the record his introduction of you. He had 
intended to be here, but we have all kinds of things going on 
today.
    Finally, Glenn Hubbard, who is an economist and professor 
of Economics and Finance at Columbia University. He is 
nominated to be a member and Chairman of the President's 
Council of Economic Advisers. Glenn, we are very happy to have 
you here with us today.
    Let me get each of you to rise and raise your right hand.
    [Witnesses sworn.]
    Chairman Gramm. Please be seated. Grant, why don't you 
begin?

           STATEMENT OF GRANT D. ALDONAS, OF VIRGINIA
                     TO BE UNDER SECRETARY
               INTERNATIONAL TRADE ADMINISTRATION
                  U.S. DEPARTMENT OF COMMERCE

    Mr. Aldonas. Thank you, Mr. Chairman. It is an honor to 
appear before you today as President Bush's nominee to be Under 
Secretary of Commerce for International Trade. I have a longer 
statement that I would with your consent submit for the record.
    Chairman Gramm. I will put the extended statement of each 
of our witnesses in the record.
    Mr. Aldonas. I will summarize my points here. First, I want 
to express my thanks to President Bush and Secretary Evans. I 
am humbled by the confidence they have placed in me and I look 
forward to representing our Nation's interests--and God's 
interest as well, Mr. Chairman--in the international trade 
arena if confirmed.
    Second, I want to thank----
    Chairman Gramm. Don't forget the order.
    [Laughter.]
    Mr. Aldonas. I am conscious of that. Second, I want to 
thank you for making time on the Senate Banking Committee 
schedule. The Senate Banking Committee obviously has been 
punching things out left and right early on in this year, and I 
appreciate your making time for us.
    I want to assure you of my interest in building a strong 
partnership with the Committee, and I hope that I can call 
regularly on your advice and good counsel and on your staff 
regarding all matters before the International Trade 
Administration.
    Third, I want to underscore how proud I am to have the 
opportunity to serve with the professionals at the 
International Trade Administration, whether it is the industry 
experts in Trade Development, the Market Access and Compliance 
staff responsible for enforcing our trade agreements, the staff 
of Import Administration that are responsible for addressing 
foreign unfair trade practices, or the officers of United 
States and Foreign Commercial Service that link American 
business to export opportunities abroad.
    I also want to say how pleased I am to have colleagues like 
Maria Cino with her experience and stature and expertise as a 
part of our team in ITA to head the United States and Foreign 
Commercial Service, and Ken Juster, who is going to be heading 
the Bureau of Export Administration.
    Fourth, in terms of priorities, I believe we should pursue 
the overall goal of shaping an economic environment in which 
goods, services, capital and ideas flow freely, because that is 
the environment in which the American entrepreneurs' risk, and 
American workers' labor, will be ultimately rewarded.
    At a practical level in the International Trade 
Administration, that means focusing the Department's resources 
on the objective of expanding export and business development 
opportunities abroad, including the use of tools that the 
Senate Banking Committee has given us, like the Trade Promotion 
Coordinating Committee; making clear our commitment to see that 
our trade agreements are enforced and that our exporters 
receive the benefit of the bargain that our negotiators reach 
at the negotiating table; and adopting the same results-
oriented approach to the enforcement of our unfair trade laws.
    And here, with respect to the unfair trade laws, I want to 
be clear that we would like to use these as tools not as an end 
in and of themselves but as tools to encourage the elimination 
of the underlying unfair trade practices, the market 
distortions they create, and the limitation they impose on our 
exporters.
    Finally, I would like to express my thanks to Senator Bill 
Roth for the opportunity he gave me to serve as Chief of the 
International Trade Counsel on the Finance Committee while he 
was Chair for 4 years, and to both Senator Roth and Senator 
Moynihan, the Ranking Member on the Finance Committee. I owe 
them a debt that I hope my continued public service can, in 
part, repay.
    Most importantly, I would like to thank my wife, Pam, who 
has been my partner.----
    Chairman Gramm. Why don't you introduce any members of your 
family who are here?
    Mr. Aldonas. This is my wife, Pam Olson, who has been my 
partner in every endeavor for the last 21 years. We just got 
through another anniversary, for which I am always grateful.
    [Laughter.]
    This is my son, Noah, who is all of 10 and is cross with me 
because he missed a good lunch and a field trip to come down to 
the Senate Banking Committee this afternoon.
    [Laughter.]
    I have two daughters who are not here, Nicole and Kirsten, 
who are off at college, and hopefully will be coming home 
pretty soon. I have my brother John, who is the workout expert 
at the Overseas Private Investment Corporation. So, when 
anything bad happens at OPIC, he has to take care of it.
    The other point I would make, Mr. Chairman, particularly 
for you, knowing that you sit on the Finance Committee, is Pam 
recently left her partnership at Skadden Arps and her role as 
the first woman chair of the ABA Tax Section to become the 
Deputy Assistant Secretary for Tax Policy. And all I can say is 
that for 20 years, I have assiduously followed her advice, and 
I would recommend that you do the same on tax policy.
    [Laughter.]
    Mr. Aldonas. I would be pleased to answer any questions you 

may have.
    Chairman Gramm. Ken, why don't you, if you have any 
kinfolks here, introduce them and then make your statement.

             STATEMENT OF KENNETH I. JUSTER, OF THE

          DISTRICT OF COLUMBIA, TO BE UNDER SECRETARY

                BUREAU OF EXPORT ADMINISTRATION

                  U.S. DEPARTMENT OF COMMERCE

    Mr. Juster. Thank you, Mr. Chairman. It is a great honor 
for me to be here today as the President's nominee for the 
position of Under Secretary of Commerce for Export 
Administration.
    I thank the President and Secretary Evans for their 
confidence and trust in me. I appreciate the time that several 
Members of the Committee have taken in the past few weeks to 
meet with me in-
dividually to discuss export and related issues. I regard 
consulta-
tion with this Committee as an important and ongoing process, 
and 
if confirmed, I will look forward to working closely with you 
and your staff.
    The Bureau of Export Administration operates at the 
intersection of issues involving industry and national 
security. As you know, a principal focus for the Bureau is 
administering an export control system that is intended to 
further the growth of U.S. exports while protecting our 
national security.
    On the one hand, it is important to enhance the operation 
of the system for the 21st Century in a manner that affords 
business the opportunity to compete effectively in today's 
increasingly competitive global marketplace.
    It is in my view essential to the health of our Nation's 
industrial and technological base that U.S. companies be able 
to export their goods, services and technology without being 
hindered by arbitrary or unnecessary export controls. At the 
same time, however, as someone who has worked at the U.S. 
Department of State, I fully appreciate the critical importance 
of protecting this country's national security by ensuring that 
our sensitive technologies do not fall into the wrong hands.
    The challenge for all of us in government and in the 
private sector is to have a tough minded yet common sense 
export control regime that strikes the proper balance between 
sharing our technology with friends and protecting against the 
transfer of sensitive technology to potential adversaries.
    If confirmed, I am committed to the pursuit of policies and 
procedures that will advance these objectives.
    If confirmed, I also will try to enhance multilateral 
cooperation to control the proliferation of the most critical 
technologies to potential adversaries. If the U.S. Government 
determines that our companies should not make a particular 
technology available to certain countries, then we owe it to 
our business community to make every effort possible to ensure 
that our allies and partners do not undercut us by making that 
same technology available.
    Finally, the Bureau's work involving industry and national 
security extends to assisting in the coordination of the U.S. 
Government's initiatives on critical infrastructure protection. 
This effort includes promoting public-private partnerships 
across industry sectors, integrating the various infrastructure 
plans developed by these partnerships into a comprehensive 
national plan, and assisting Federal departments and agencies 
in assessing their own reliance on critical infrastructures.
    In an era when cyberterrorism is a real and dangerous 
threat, I regard the work of the Bureau's Critical 
Infrastructure Assurance Office as an important component of 
our overall mission.
    Let me conclude by thanking the Committee for its prompt 
consideration of my nomination and by reiterating my commitment 
to work closely and cooperatively with you.
    Thank you.
    Chairman Gramm. Ms. Cino.

              STATEMENT OF MARIA CINO, OF VIRGINIA

         TO BE ASSISTANT SECRETARY AND DIRECTOR GENERAL

          UNITED STATES AND FOREIGN COMMERCIAL SERVICE

                  U.S. DEPARTMENT OF COMMERCE

    Ms. Cino. Mr. Chairman, Senator Hagel, it is an honor and a 
privilege to come before you as President Bush's nominee for 
the position of Assistant Secretary and Secretary General of 
the United States and Foreign Commercial Service.
    Thank you for granting me this hearing today. I know how 
busy you are, and I appreciate your attention to this 
nomination. I look forward if confirmed to working with the 
Members and staff of this Committee on matters related to 
export promotion.
    I would also like to thank President Bush and Secretary of 
Commerce Don Evans for their support in my nomination.
    Small- and medium-sized American businesses understand and 
appreciate the unique and valuable role played by commercial 
service in trade promotion and trade compliance. If confirmed, 
I have set three goals for the agency: First, to increase the 
number of exports from traditionally underserved communities, 
which would include minority, rural and women-owned businesses.
    Second, increase the number of new exporters, and help 
current exporters increase the number of markets to which they 
export.
    And third, to include the quality of export assistance 
provided to American companies by the Commercial Service by 
enhancing the skills of our employees through professional 
development opportunities. I welcome the challenge of leading a 
worldwide, field-based operation of 1,700 dynamic individuals.
    My 20 plus years of leading field-based organizations 
developing and adhering to complex budgets, setting goals, 
long-term and short, building coalitions and developing, 
motivating and mentoring staff have prepared me for this 
position.
    Finally, let me say that I am humbled. I could never 
imagine, our growing up in blue collar ethnic and conservative 
household, that I would be sitting here today before the U.S. 
Senate in a confirmation hearing to be Assistant Secretary and 
Director General for the United States and Foreign Commercial 
Service.
    I want to thank my loving parents for teaching me that if I 
work hard, anything was possible. I would also like to thank my 
colleagues and my friends who challenged me and gave me the 
opportunity to grow. I deeply appreciate the honor of being 
here today.
    If confirmed, I look forward to working with Grant Aldonas 
and my sister International Trade Administration bureaus to 
promote U.S. exports, to support U.S. trade policies, and to 
enforce trade agreements.
    Thank you.
    Chairman Gramm. Thank you.
    Glenn, I know that your family is here. Why don't you start 
by introducing them, then give us your statement.

         STATEMENT OF ROBERT GLENN HUBBARD, OF NEW YORK

                TO BE CHAIRMAN OF THE COUNCIL OF

                       ECONOMIC ADVISERS

    Mr. Hubbard. Thank you, Mr. Chairman.
    My wife Constance is here and my two sons, Raph and Will. I 
think Will has escaped into a nap. My older son, Raph, may 
follow our footsteps as an economist, Mr. Chairman, but he may 
decide to be a baseball pitcher instead, so I don't know 
whether we will snag him.
    Chairman Gramm. The money's better in baseball.
    [Laughter.]
    Mr. Hubbard. That is what my wife reminds me of. If he can 
become a New York the Yankee, that is fine. I am also 
privileged to have my wife's parents, Cecil and Betty Pond, 
with me, and my children's godparents, Bev and Bill Roberts.
    I would like to begin, Mr. Chairman, just by thanking you 
for the timely consideration of my nomination--especially given 
the pressures under which the Committee is operating. I am very 
honored to be the President's nominee as Chairman of the 
Council of Economic Advisers.
    Because I am an advocate of a tax cut, I will start out by 
reducing the length of my oral remarks.
    Chairman Gramm. Let me stop you a minute on that thought, 
and let me recognize Senator Schumer who wanted to say a word 
on behalf of Maria Cino.

             COMMENTS OF SENATOR CHARLES E. SCHUMER

    Senator Schumer. Ken Juster and Maria Cino are both New 
Yorkers, and are extremely well-qualified. I apologize for 
being late, but it has been a busy day. I hope the Committee 
gives each of them a unanimous recommendation and I thank you, 
Mr. Chairman, for the time, and apologize to Mr. Hubbard for 
interrupting.
    I am back to the Judiciary Committee. I apologize to the 
witnesses. Thank you.
    Mr. Hubbard. I am also a transplanted New Yorker--another 
one of your constituents.
    Senator Schumer. Transplanted coming or going?
    Mr. Hubbard. Both. I am not a native New Yorker and I am 
living in Washington.
    Senator Schumer. I am sure those few years in New York have 
helped Mr. Hubbard along.
    [Laughter.]
    Chairman Gramm. Go ahead.
    Mr. Hubbard. Thank you, Mr Chairman.
    Again, I would like to say at the outset that I am honored 
to be President Bush's choice to be Chairman of the Council of 
Economic Advisers. Should you confirm me, I will take very 
seriously the long-standing tradition of the Council in 
providing economic analysis to the President and to the 
Executive Branch.
    The stewardship of the Council is a wide-ranging 
responsibility for everything from the preparation of the 
Economic Report of the President to the advice to the President 
and the Vice President.
    As I had mentioned to you, Mr. Chairman, when we met in 
your office, I intend to continue the tradition of applying the 
highest professional standards possible. I share your concern 
for the Lord's work, as you know. The Lord, I think, is usually 
on the side of 
economic efficiency. The constituency for the Lord's work is 
some-
times small, but, at the Council, we count ourselves as part of 

that constituency. I look forward to working with you on this 
Committee and other Committees in the Congress in the economic 
policy process.
    Thank you.
    Chairman Gramm. Thank you.
    Let me recognize Senator Santorum, who wanted to make a 
comment on behalf of Maria Cino.

               COMMENTS OF SENATOR RICK SANTORUM

    Senator Santorum. First let me apologize for being late, 
but I wanted to get over here and introduce to the Committee 
Mario Cino, and just tell you that I have the utmost respect 
for this young woman. She is someone who I got to know when she 
did everything she could to elevate a rather fumbling 
politician from outside of Buffalo, NY, named Bill Paxon, into 
the leadership of the House of Representatives.
    She did an outstanding job with him in running his office, 
and just amazed me with her incredible confidence and work 
ethic, and under understanding of the process as well as the 
politics of the process. She went over and she did some great 
work in the political realm for a while.
    Again, she was just someone I felt knew her job and did it 
as well as she could, no matter what job it was.
    When I found out that she was interested in taking a job 
with the Administration, frankly it did not matter what job she 
was taking, in my mind, because I knew that she would take the 
kind of energy and effort and professionalism to that position 
that would be beyond what anyone could possibly hope for.
    I am excited she has agreed to come on to this 
Administration and work for the United States and Foreign 
Commercial Service. I know she will do an outstanding job in 
our Government and for the businesses who rely on the Foreign 
and Commercial Service.
    Chairman Gramm. Thank you, Senator Santorum. I have just a 
couple of points I would like to make.
    First, Mr. Juster, have you had an opportunity yet to study 
the Export Administration Act reported by this Committee?
    Mr. Juster. Yes, I have, Senator.
    Chairman Gramm. Do you feel comfortable in vigorously 
supporting it?
    Mr. Juster. I commend this Committee on its work on S. 149 
and I do regard it as a very positive step toward reform of the 
export control system.
    I should note that, while I have not been involved in 
Administration discussions regarding the legislation, the 
Administration has indicated its support for the legislation. 
If confirmed, I would be joining the Administration in 
supporting the legislation.
    Chairman Gramm. Thank you.
    Let me go back to Mr. Aldonas and just simply say that I 
have had, in my political career, the following experience, and 
I would submit that you will have it in your new job.
    People knock on my door and tell me terrible stories about 
how these foreigners are cheating, and how they won't allow 
goods they produce to come into this foreign country.
    Then I say to them, well, what do you want me to do?
    They say, not in these words, but the basic translation is, 
foreign governments cheat their consumers, and I want you to 
cheat American consumers by protecting me from foreign 
competition.
    I would say of 100 people who come to see me with a trade 
complaint, 99 of them do not have the least interest in dealing 
with that complaint. They simply want to use that trade 
complaint as a reason for imposing protectionism in the 
American market.
    I had the president of a major automobile company once try 
to explain to me his effort to force the Japanese to open their 
market. And so I listened and listened and listened, trying to 
determine the relevance of what he was saying to me.
    And finally it became clear that the relevance was 
justification for erecting protectionist barriers against 
Japanese automobiles in the American market. So I just commend 
that experience.
    Maybe your experience will turn out to be different than 
mine. Maybe yours will be one in a thousand instead of one in a 
hundred that have a legitimate case that they actually want to 
be fixed.
    But I think it is very important that the Commerce 
Department set a very high standard when people are actually 
asking for trade remedies that will put Americans out of work, 
that will make America noncompetitive in many different areas.
    As you know, the political base for international trade, 
like the political base of freedom, is often very, very small. 
I have found, of all issues that I have dealt with in public 
life, that trade is the least well-understood. Of all issues 
that I have dealt with, it is the most difficult because it is 
counterintuitive. It is like skiing.
    [Laughter.]
    Chairman Gramm. So I commend you to your task.
    Senator Hagel.

                COMMENTS OF SENATOR CHUCK HAGEL

    Senator Hagel. Thank you, Mr. Chairman.
    I too welcome each of you this afternoon. I note with some 
curiosity that there is such a big deal made, Mr. Chairman of 
being from New York, when I would rather think that a Texas 
background might serve you better.
    But if you cannot be from Texas or Nebraska, then I guess 
New York will have to suffice.
    [Laughter.]
    Senator Hagel. I do not say that in any gratuitous way to 
curry favor with the Chairman. We have never done such a thing 
here, and I am not about to violate that principle.
    Chairman Gramm. Well, all of their bosses are from Texas. 
You need to understand that.
    Senator Hagel. Well, I am glad. But we do not have anybody 
from Nebraska, unless you have claimed Nebraska.
    I might add, as long as we are on Nebraska, did you know, 
Mr. Chairman, that the Navy pilot that brought the P-3 in 
successfully on Hainan Island was from Nebraska. I do not know 
what that has to do with your hearing.
    [Laughter.]
    Chairman Gramm. Isn't he the Navy pilot that ran down that 
jet fighter?
    [Laughter.]
    Senator Hagel. We have a big airspace in Nebraska. That is 
where he learned how to fly.
    [Laughter.]
    Senator Hagel. Nonetheless, picking up a little bit on 
where the Chairman left off on his observations during his 
distinguished career about trade, I happen to concur with the 
Chairman on that point.
    Not that I have been in Congress near as long as Chairman 
Gramm, but at one time, I was a business man. And at one time, 
I did a lot of work around the world, or attempted to do work 
around the world.
    So I have seen from various perspectives the importance of 
this government in promoting trade and trade policy. I do not 
believe there is a more important dynamic for the future of 
this country and the future of the world than trade. I think it 
is that important.
    The three of you--and we will get to Mr. Hubbard in a 
moment--are charged with a heavy responsibility which each of 
you I think understands.
    And I would be very interested in getting each of your 
thoughts on where we should direct more of our focus on trade 
issues.
    I left a meeting about half an hour ago of the United 
States/China Security Commission. It was a Commission set up 
which you know about, Mr. Aldonas, to look at some of the more 
high tech, dual use pieces of equipment and exports that we now 
export specifically to China, especially in light of events of 
the last few weeks.
    We are now confronted, your Administration and the 
Congress, together are confronted with this perplexing dilemma. 
Do we pull back on trade with China? Do we try to punish China. 
Do we adjust our relationship with China through trade.
    I have never believed that that is effective. As a matter 
of fact I think it is counterproductive. That is aside from the 
point that I would again like to ask each of you to share with 
this Committee some of your thoughts about where we should be 
doing better, how can we do better, how will you lead that 
effort to promote trade.
    Mr. Aldonas, we will begin with you.
    Mr. Aldonas. Maybe I could divide the answer between some 
of the policy priorities and some of the practicalities, 
Senator. It is the right question to be asking of us and of the 
Administration at this point. On the policy priorities, I think 
the President was clear in Quebec. His stance is that this 
Administration is going to be an Administration that stands for 
free trade, for trying to create the environment in which 
entrepreneurs can succeed where capital is at risk and where 
workers can see rising standards of living. Trade is essential 
to that.
    The first near-term prospect, as outlined by the President, 
is the Free Trade Agreement of the Americas. We have an 
opportunity to build out the arrangements we have with the 
Canadians and Mexicans into an agreement that covers the 34 
democracies in the western hemisphere.
    The President is focused on that. We have a window of 
opportunity because of the President's focus. The President's 
agenda can be changed and be shaped by events like those in 
China. I think this is an opportunity for our trading partners 
in Latin America to seize as much as it is an opportunity for 
us. But that is the first target out of the box.
    It is also a good precursor to what we should be doing with 
in the framework of the World Trade Organization which is 
launching a new round of multilateral trade negotiations.
    As you well know, it is essential to our agricultural 
community to be in the WTO. We have the agriculture 
negotiations as part of the built in agenda, which have gotten 
a lot farther than frankly I would have expected at this point 
without having a solid push from the prior Administration. This 
Administration is fully behind that effort.
    There is one essential element that is missing as a part of 
that package, however, which is to get trade promotion 
authority from the Congress. The President is committed to 
doing that by the end of the year.
    Although the argument is many times made that it is our 
trading partners that have to know we have trade promotion 
authority, in my view, it is our negotiators that need to know 
it. What they need to know is that there is a contract between 
the Congress and the Executive about what the agenda is when 
they sit down to negotiate at a table. That is the critical 
element that I think in many respects has been missing, as we 
have gone to the negotiating table in recent years.
    On the practical side, I would like to see us at the 
Commerce Department get focused on trade agreements compliance 
in a way we haven't in the past. So, if it is a problem with a 
customs inspector, in Shanghai, we solve that problem there, so 
it doesn't become a debate about principles.
    If it is a systemic problem among all customs inspectors in 
China, I want to hear about it, so we can bring the weight of 
the U.S. Government to bear on that and resolve that at the 
political level before we end up in a larger dispute.
    If it is a problem with the EU, where we realize we are 
going to be headed for litigation in the WTO, then I think all 
of us at the Commerce Department need to be building an 
effective record that allows us to vindicate our rights when we 
are in that forum at the end of the day.
    And, I will be dedicating most of my time to focusing on 
ensuring that the trade agreements we have reached and the 
bargains our negotiators negotiated are going to be fulfilled.
    Chairman Gramm. Mr. Juster, did you want to answer that 
question as well?
    Mr. Juster. I would be happy to.
    Senator Hagel. Thank you, Mr. Chairman.
    Mr. Juster. As you noted, Senator Hagel, my area focuses on 
the exports of sensitive technology to countries around the 
world. In terms of my overall philosophy, it would be to 
promote such exports when we are dealing with allies and 
partners and we can work together in areas of defense 
cooperation.
    But we must be more careful when we are exporting sensitive 
technology to countries of concern. We might permit such 
exports if they are going to help the people of a country and 
open up their society without enhancing their weapons 
capabilities.
    But if there is a true national security concern, we want 
to restrict such exports. In those circumstances, it is 
incumbent upon us to try to get multilateral cooperation on 
restricting these exports, so that we are not just restricting 
our own companies' ability to export such technology. Instead, 
we should be working in a cooperative way with allies and not 
having our own exports undercut by the same technology being 
shipped abroad by our allies.
    I therefore want one of my priorities to be to enhance 
multilateral cooperation of export controls, and to try to make 
sure that we 
are working effectively with our allies and partners in terms 
of stopping the proliferation of weapons capabilities in 
countries 
of concern.
    Chairman Gramm. Senator Corzine.

               COMMENTS OF SENATOR JON S. CORZINE

    Senator Corzine. Yes, Mr. Chairman. I appreciate very much 
the time and service that this outstanding panel is about to 
begin. Tremendous credentials.
    I have actually worked with several of these folks on a 
personal level and give testimony to their excellence and 
commitment to integrity, but I would be remiss if I did not--
and I hope this question has not been asked of a future 
Chairman of the Counsel of Economic Advisers on his current 
views of how the economy is evolving. I do not know whether 
someone asked that question, but I would love to hear your 
comments, sir.
    Mr. Hubbard. Certainly, Senator. In my view, the economy's 
current rate of growth is unacceptably low. That is, the 
economy's potential rate of growth is substantially above the 
rate of growth that we have experienced in the past two 
quarters.
    In the first quarter, the economy's rate of growth likely 
will be in the range of 1 to 2 percent at an annual rate.
    I share the predictions of many private forecasters that 
the economy's rate of growth is likely to improve toward the 
end of 2001, and going into 2002. I would caution, however, 
that part of the prediction of improvement in growth by private 
forecasters reflects a belief that a more stimulative fiscal 
policy will be in place.
    To give a quick answer to your question, Senator, I believe 
we are in a growth slowdown at the moment. The rate of growth 
is unacceptably low, but we are likely not at the present time 
to be in a recession.
    Senator Corzine. Thank you, Mr. Chairman.
    Chairman Gramm. Let me thank each of you for coming today. 
We will try to have a mark-up and report each of your 
nominations to the floor of the Senate as soon as we can.
    And again I want to thank each of you for your willingness 
to serve. Thank you very much.
    [Whereupon, at 3:35 p.m., the hearing was adjourned.]
    [Prepared statements, biographical sketches of the 
nominees, and response to written questions follow:]
            PREPARED STATEMENT OF SENATOR CHARLES E. SCHUMER
    Thank you, Mr. Chairman. I want to thank you for having this 
hearing today and getting the nomination process moving.
    I would like to welcome our New Yorkers, Ken Juster and Maria Cino 
It is good to see that New York, which breeds talent as well as the 
spirit of public service, has excellent representation on this panel. 
In particular, I have the privilege of introducing Ken Juster, who has 
been nominated by the President to serve as the Under Secretary of 
Commerce for Export Administration.
    Ken is eminently well qualified to be the Under Secretary, not 
simply because he was born and raised in New York. Although that helps. 
Ken has had a distinguished academic and professional career. He 
received a B.A. from Harvard College--my alma mater--and then received 
a law degree from the Harvard Law School--also my alma mater. After a 
clerkship with the Second Circuit Court of Appeals, Ken came to 
Washington, DC, where he joined Arnold & Porter, practicing in 
international economic and legal matters, including export issues, 
economic sanctions, and foreign investment.
    In the previous George Bush Administration, Ken served as an 
adviser to Lawrence Eagleburger and became Counselor of the State 
Department in 1992. While at State, Ken managed a wide-range of policy 
issues relating to many of the same countries with which he will have 
to deal if confirmed for his new position. Upon completion of his 
tenure, Ken received the Distinguished Service Award and Medal, which 
is the State Department's highest honor, then returned to Arnold & 
Porter.
    Ken has the intellect and broad experience needed for an Under 
Secretary in Export Administration. He also has a great sense of humor, 
and he is someone with whom I am sure we will all enjoy working. In 
short, I think we are fortunate to have someone of Ken's caliber 
willing once again to enter public service. And I would like to welcome 
him here today.
                               ----------
                 PREPARED STATEMENT OF GRANT D. ALDONAS
                       Under Secretary-Designate
                   International Trade Administration
                      U.S. Department of Commerce
                             April 24, 2001
    Mr. Chairman, Senator Sarbanes, and Members of the Committee, I am 
honored to appear before you today as President Bush's nominee to be 
Under Secretary of Commerce for International Trade. I am humbled by 
the confidence the President and Secretary Evans have placed in me. I 
look forward to representing our Nation's interests in the 
international trade arena and am eager to tackle that challenge.
    America's ability to lead on trade ultimately depends on a 
partnership between Congress and the President. That boils down to a 
question of trust between Members of Congress and the President and his 
team. If I am fortunate enough to be confirmed by the Senate, my 
primary objective will be to establish a strong working relationship 
with the Members of the Committee and your staff to ensure that ours is 
a partnership that works.
    I intend to establish a regular schedule of meetings with your 
staff to ensure that you are fully informed of our progress. I will 
always be on call and will always be interested in your views on how we 
can improve our performance at the Commerce Department. I look forward 
to your advice and counsel.
    President Bush and Secretary Evans are fond of quoting Ronald 
Reagan for the proposition that trade represents a ``forward strategy 
for freedom.'' The Commerce Department's International Trade 
Administration (``ITA'') is on the front lines in that effort.
    The staff in Trade Development are the U.S. Government's industry 
experts, providing technical support to our trade negotiators, advice 
to American exporters, and advocacy for U.S. firms in sector-specific 
talks with our trading partners. Officials in Market Access and 
Compliance (``MAC'') advocate the American exporter's interest in trade 
negotiations and are responsible for ensuring that American firms get 
the benefit of the bargain under our trade agreements. Import 
Administration ensures that our firms compete internationally on a 
level playing field. The officers of the United States and Foreign 
Commercial Service link American firms--particularly small- and medium-
sized businesses--with trade and business development opportunities 
abroad.
    I have had the good fortune to work with many of the professionals 
in International Trade Administration throughout my career, both in my 
prior public service with the State Department, the Office of the U.S. 
Trade Representative, and on the staff of the Senate Finance Committee, 
as well as during the many years I spent in the private sector. I want 
to underscore for the Committee, and for my friends in the Department, 
that I consider it an honor to have the opportunity to work side-by-
side with them in advancing America's trade agenda. I also want to 
underscore how pleased I am that a colleague of Maria Cino's experience 
and stature will join our team in ITA as the head of the United States 
and Foreign Commercial Service.
    We live in a time of unprecedented economic opportunity and 
unprecedented economic challenge. The end of Cold War barriers to 
peaceful commerce and the changing nature of communications and 
transportation technology have made us neighbors of every country 
around the globe. The challenge lies in ensuring that those changes 
expand the economic opportunity for all Americans.
    The Commerce Department's International Trade Administration has a 
significant role to play in that effort. It is the American 
entrepreneur who puts his or her capital at risk and American workers 
who with their labor ensure that American goods and services represent 
a hallmark of quality around the world. It is their efforts, not the 
government's, that create economic prosperity. What we in government 
can do, however, is help shape an environment in which goods, services, 
capital and ideas flow freely because that is the environment in which 
the entrepreneur's risk and the American worker's labor will ultimately 
be rewarded.
    I would like to outline three priorities I intend to focus on if 
confirmed as Under Secretary for International Trade that I believe 
will serve that end. First and foremost is expanding export 
opportunities for American business. At a practical level, that effort 
involves concentrating the Department's resources in ways that are 
likely to provide the greatest pay-off for American businesses trying 
to gain access to world markets.
    The challenge within ITA is to ensure that the component parts stay 
fixed on a single goal--identifying promising targets for our exporters 
and providing the support they need to reach those markets. The Senate 
Banking Committee has been in the forefront of providing the Department 
with the tools to improve our performance in that regard. In 
particular, I would like to reinvigorate the Trade Policy 
Coordinating Committee as the vehicle for bringing not just the 
Department's 
resources to bear on behalf of U.S. exporters, but the resources of the 
government 
as a whole.
    The Commerce Department can also contribute to the effort to expand 
the benefits of trade to all Americans. I intend, for example, to work 
closely with other parts of the Department, other U.S. agencies, and 
with trade promotion offices at the State-level to reach out to 
minority-owned businesses interested in international markets. I am 
committed to working closely with the Small Business Administration, in 
particular, to ensure that those small- and medium-sized businesses 
that provide the overwhelming source of new employment in our economy 
have the opportunity to ``go global'' from the outset of their 
existence.
    Second, I want the Bush Administration's tenure to reflect the 
strongest possible commitment to the enforcement of our trade 
agreements. Both the President and Secretary Evans fully support that 
effort. We cannot expect the American public's support for an active 
trade agenda if our exporters do not get the benefit of the bargain 
they have a right to expect from our trade agreements.
    What that means in practical terms is ensuring that each and every 
employee in the Commerce Department is focused on serving our exporters 
on the ground. If the problem lies with an errant interpretation of the 
World Trade Organization Customs Valuation Agreement by a customs 
official in Marseille, I want our Foreign Commercial Service officers 
to solve that problem at a working level in Marseille so that the goods 
can reach their markets without further delay. If the problem is a 
systemic one--a pattern of behavior that violates our rights under 
trade agreements, I want to hear about it immediately so that the staff 
in Trade Development can bring the weight of the U.S. Government to 
bear on the problem at a political level as early as possible in 
pursuit of a practical solution to our exporters' problems. If the 
problem is one that requires us to go to dispute settlement under our 
various trade agreements, I want our Market Access and Compliance 
officers to understand the importance of building the factual record 
for our claim and working closely with our counterparts in the Office 
of the U.S. Trade Representative to ensure that the dispute settlement 
process vindicates our rights.
    Third, I would like to adopt the same results-oriented approach to 
the administration of our unfair trade laws by the Import 
Administration. Congress never intended antidumping and countervailing 
duty actions to be an end in themselves. Rather, the unfair trade laws 
represent tools that should be used in an effort to eliminate the 
underlying unfair trade practices that distort markets and deny 
American firms--and firms worldwide--to compete on an equal basis.
    The debate over the earliest versions of the U.S. countervailing 
duty law in the 1890's reflected Congress' intent to offset the market 
distortions introduced into the sugar trade by Russian subsidies to 
sugar production. Congress' action, however, also reflected an intent 
to provide leverage to pursue the elimination of such practices and 
their harmful effects on U.S. markets.
    It is time to restore that focus to our efforts. Whether the issue 
is steel, lumber, semiconductors, or supercomputers, our goal should be 
the elimination of unfair practices that interfere with the market's 
ability to guide investment to its most productive use in our own 
economy and in markets for goods and services world wide. The capital 
markets impose a strict discipline that steers capital to those 
activities that generate the highest possible rate of return. Trade 
distorting subsidies and other unfair practices that interfere with the 
ability of the capital markets to impose that discipline impose a high 
cost on our exporters and on our economy as a whole.
    In his conversations with me, Secretary Evans has put that in more 
human and tangible terms. He has often said that there is nothing more 
dispiriting to American workers and American entrepreneurs who put 
capital at risk than to see that they are not competing on a level-
playing field. If confirmed by the Senate, I pledge to work within the 
Department, with other agencies, and, most importantly, with American 
industry to ensure that our policies and our actions target the 
elimination of trade-distorting practices and the costs they impose.
    Let me close by once again thanking the President and Secretary 
Evans for nominating me to serve the American public as Under Secretary 
of Commerce for International Trade. I would also like to reiterate my 
appreciation to you, Mr. Chairman, to Senator Sarbanes, and to the 
other Members of the Committee for allowing me to appear before you 
today.
    I would like to thank Senator Bill Roth for having given me the 
opportunity to serve as the Chief International Trade Counsel while he 
was Chairman of the Finance Committee for the past 4 years. Chairman 
Roth and his esteemed friend and colleague, Senator Pat Moynihan, the 
Ranking Member on the Finance Committee, exemplified the spirit that 
should always imbue the democratic process. I will be forever in their 
debt for the education and inspiration their leadership provided.
    Last, and most importantly, I would like to thank my wife, Pam, and 
my children, Nicole, Kirsten, and Noah, for their support for me while 
I have been in public service. Pam recently left her law partnership 
and her role as the first woman ever to chair the American Bar 
Association's Section of Taxation to serve President Bush and Treasury 
Secretary O'Neill as the Deputy Assistant Secretary of Treasury for Tax 
Policy. I can say, objectively, based on 21 years of evidence that Pam 
is the best partner anyone could ask for--the President and Secretary 
O'Neill could not have found a better choice.
    I would be pleased to answer any questions you may have.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
                PREPARED STATEMENT OF KENNETH I. JUSTER
                       Under Secretary-Designate
                   Commerce for Export Administration
                      U.S. Department of Commerce
                             April 24, 2001
    Chairman Gramm, Senator Sarbanes, and Members of the Committee: It 
is a great honor for me to be here today as the President's nominee for 
the position of Under Secretary of Commerce for Export Administration. 
I thank the President and Secretary Evans for their confidence and 
trust in me.
    I appreciate the time that several Members of the Committee have 
taken in the past few weeks to meet with me individually to discuss 
export and related issues. I regard consultation with this Committee as 
an important and ongoing process. If confirmed, I will look forward to 
working closely with you and your staff.
    The Bureau of Export Administration operates at the intersection of 
issues involving industry and national security. A principal focus for 
the Bureau is administering an export control system that is intended 
to further the growth of U.S. exports while protecting our national 
security. On the one hand, it is important to enhance the operation of 
the system for the 21st century in a manner that affords business the 
opportunity to compete effectively in todays increasingly competitive 
global marketplace. It is essential to the health of our Nation's 
industrial and technological base that U.S. companies be able to export 
their goods, services, and technology without being hindered by 
arbitrary and unnecessary export controls.
    At the same time, however, as someone who has worked at the U.S. 
Department of State, I fully appreciate the critical importance of 
protecting this country's 
national security by ensuring that our sensitive technologies do not 
fall into the 
wrong hands. The challenge for all of us--in government and in the 
private sector--is to have a tough-minded, yet common-sense export 
control regime that strikes the proper balance between sharing our 
technology with friends and protecting against the transfer of 
sensitive technology to potential adversaries. If confirmed, I am 
committed to the pursuit of policies and procedures that will advance 
these objectives.
    If confirmed, I also will try to enhance multilateral cooperation 
to control the proliferation of the most critical technologies to 
potential adversaries. If the U.S. Government determines that our 
companies should not make a particular technology available to certain 
countries, then we owe it to our business community to make every 
effort possible to ensure that our allies and partners do not undercut 
us by making that same technology available.
    Finally, the Bureau's work involving industry and national security 
extends to 
assisting in the coordination of the U.S. Government's initiatives on 
critical infra-
structure protection. This effort includes promoting public-private 
partnerships across industry sectors, integrating the various 
infrastructure plans developed by these partnerships into a 
comprehensive national plan, and assisting Federal departments and 
agencies in assessing their own reliance on critical infrastructures. 
In an era where cyber-terrorism is a real and dangerous threat, I 
regard the work of the Bureau's Critical Infrastructure Assurance 
Office as an important component of our overall mission.
    Let me conclude by thanking the Committee for its prompt 
consideration of my nomination and by reiterating my commitment to work 
closely and cooperatively with you.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                    PREPARED STATEMENT OF MARIA CINO
           Assistant Secretary and Director General-Designate
              United States and Foreign Commercial Service
                      U.S. Department of Commerce
                             April 24, 2001
    Mr. Chairman, Ranking Member Sarbanes, Members of this Committee, 
it is an honor and a privilege to come before you as President Bush's 
nominee for the position of Assistant Secretary and Director General of 
the United States Foreign and Commercial Service. Thank you for 
granting me this hearing today. I know how busy you are and I really 
appreciate your attention to this nomination. I look forward, if 
confirmed, to working with the Members and staff of this Committee on 
matters related to export promotion.
    I would like to thank Senator Santorum for that kind introduction. 
Ten years ago when Senator Santorum was first elected to Congress I was 
Chief of Staff to Congressman Bill Paxon. Our office acted as ``big 
brother'' to his office and we introduced him to the culture on Capitol 
Hill. We must have been good teachers. After only one term in the U.S. 
House of Representatives he came back as a U.S. Senator.
    I also want to thank President George W. Bush and Secretary of 
Commerce Don Evans for their support of my nomination.
    Mr. Chairman, Congress created the United States Foreign and 
Commercial Service to provide export assistance at a reasonable cost to 
American companies. From the beginning, our mission has been to help 
small- and medium-sized American business export their U.S. made 
products and services and protect the interests of U.S. businesses 
abroad. The Commercial Service has grown into a worldwide organization 
that facilities export transactions by linking U.S. suppliers with 
international buyers through our network of 105 domestic and 159 
international field offices.
    Small- and medium-sized American businesses understand and 
appreciate the unique and valuable role played by the Commercial 
Service in trade promotion and trade compliance. Federal, State and 
local international trade agencies also value the Commercial Service. 
Over the years we have forged a strong partnership with the Trade 
Promotion Coordinating Committee to leverage scarce resources and 
provide seamless export assistance to clients.
    If confirmed, I will work to further strengthen the partnerships 
created through the Trade Promotion Coordinating Committee to better 
leverage Federal resources. The Commercial Service actively pursues 
partnerships with government agencies and the private sector. I believe 
that working together through partnerships at the point of service 
delivery is the most effective way to help American exporters in 
today's climate of increased global competition.
    We live in a rapidly changing society. Our Nation continues to 
evolve into a service orientated, high-tech based economy where an 
increased number of exporters are from nontraditional backgrounds. The 
Commercial Service must continue to respond to these changes.
    If confirmed, I have set three goals for the Agency:

<bullet> Increase the number of exporters from traditionally under-
    served communities (minority, rural and women-owned businesses).
<bullet> Increase the number of new exporters and help current 
    exporters increase the number of markets to which they export.
<bullet> Improve the quality of export assistance provided to American 
    companies by the Commercial Service by enhancing the skills of our 
    employees through professional development opportunities.

    This is truly an exciting time and one of tremendous opportunity 
for U.S. exporters. Commercial Service employees are dedicated, 
hardworking and committed to providing export assistance services that 
are second to none. Their enthusiasm is contagious. I invite each of 
you to visit your local U.S. Export Assistance Center to observe 
firsthand the tremendous service that these men and women provide to 
your constituent businesses seeking to export.
    I welcome the challenge of leading a worldwide field-based 
organization of 1,700 dynamic individuals. My 20-plus years of leading 
field-based organizations, developing and adhering to complex budgets, 
setting short and long term strategic goals, building coalitions, and 
developing, motivating and mentoring staff have prepared me for this 
position. In addition, the contacts I have made in Federal, State and 
local agencies will enable me to further the goals of the U.S. 
Commercial Service. It is my hope that my skills in developing 
successful, strategic marketing and outreach programs will heighten the 
awareness and value of the Commercial Service's programs to American 
companies.
    Finally, let me say that I am humbled. I could never have imagined 
that while growing up in a blue-collar, ethnic and conservative 
household, I would be sitting here today before the U.S. Senate at a 
confirmation hearing to be the Assistant Secretary and Director General 
for the United States and Foreign Commercial Service.
    I want to thank my loving parents for teaching me that if I worked 
hard, anything was possible. I especially want to thank my late father 
for not heeding the advice of my grandfather who insisted that it would 
be a waste of money to send a girl to college. I also want to thank my 
colleagues and friends who challenged me and gave me the opportunity to 
grow.
    I deeply appreciate the honor of being here today. If confirmed I 
look forward 
to working with Grant Aldonas and my sister International Trade 
Administration 
bureaus to promote U.S. exports, support U.S. trade policies and 
enforce trade 
agreements.
    Thank you.
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
               PREPARED STATEMENT OF ROBERT GLENN HUBBARD
         Chairman of the Council of Economic Advisers-Designate
                             April 24, 2001
    Mr. Chairman, Senator Sarbanes, and other distinguished Members of 
the Committee, it is an honor and privilege for me to appear before you 
today as the President's nominee to be Chairman of the Council of 
Economic Advisers. I am mindful of the Council's significant 
responsibilities in the economic policy process, and I am eager to 
assume the duties of the position should I be confirmed.
    Since my designation as Chairman, I have had the pleasure of 
visiting with many of you personally, and I look forward to meeting 
with all of you as your schedules permit. I have enjoyed the occasion 
to discuss the many economic priorities and opportunities we face in 
this Congress and the new Administration. Let me assure you that I am 
committed to a frank and outgoing dialogue with Members of Congress. 
Your input and advice are valuable to me personally and to the workings 
of the Council.
    Before my recent nomination, I served as Russell L. Carson 
Professor of Economics and Finance at the Graduate School of Business 
and Department of Economics of Columbia University. While at Columbia 
University, I also served as a research associate of the National 
Bureau of Economic Research (in programs on monetary economics, 
economic fluctuations and growth, public economics, industrial 
organization, and corporate finance) and as a visiting scholar and 
director of the Tax Policy Program of the American Enterprise 
Institute. I have, in the past, worked with committees in both the 
House and the Senate on a range of economic policy issues, and I have 
acted as adviser to various government agencies. It is with this 
background that I come before this Committee to seek confirmation as 
Chairman of the Council of Economic Advisers.
    Our Nation today confronts economic opportunities and challenges. 
Technological change and economic growth have increased living 
standards. We face the challenge of sustaining the economy's expansion. 
Though no single policy can generate the sustained growth and stability 
of our economy, the Administration is committed to a set of basic 
principles to, achieve this objective.
    As Chairman of the Council of Economic Advisers, I will be an 
adviser to President Bush, Vice President Cheney, and other 
Administration officials on all aspects of economic policy. The Council 
will provide the soundest possible advice on the major issues of 
concern to the American people.
    Mr. Chairman and Senator Sarbanes, as I have assured you 
personally, the recommendations of the Council of Economic Advisers 
will be based on a reasoned and comprehensive view of the economic 
environment and empirical evidence. We will be diligent in our efforts 
to continue the Nation's economic growth and in our response to events 
in the national and international economy.
    In closing, I would like to take this opportunity to thank you, Mr. 
Chairman, and the Committee for the prompt consideration of my 
nomination. Mr. Chairman, I would be delighted to answer any questions 
you and the other Members of the Committee may have.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

RESPONSE TO WRITTEN QUESTIONS OF SENATOR SCHUMER FROM GRANT D. 
                            ALDONAS

    Q.1. American cosmetics constitute one of our Nation's most 
important consumer product export sectors. American 
manufacturers have raised strong concerns about new regulations 
issued by the Korean Food and Drug Administration (KFDA) that 
are purported to insure the safety and efficacy of a wide range 
of skin care products that are already widely used and accepted 
both here and around the world. The American firms complain 
that the KFDA regulations are extremely discriminatory and in 
reality are serving as enormous barriers to the entry of safe 
and desirable American skin care products into the Korean 
Market. Indeed, of approximately 450 product applications 
submitted to date under the new regulations, only a handful 
have been approved, all of which were submitted by Korean 
firms. No foreign firm applications approved. Would you commit 
to expeditiously looking into this serious issue and reporting 
back quickly to the Committee about the status and avenues for 
redressing this apparent cosmetics trade barrier problem with 
Korea?

    A.1. Yes. I understand this is an important market access 
issue for U.S. companies and, if confirmed, I will make it a 
priority for the International Trade Administration (ITA). Once 
confirmed, I will report back to you and the Committee on the 
extent to which our ITA compliance officers have already been 
actively monitoring the issue of trade barriers to exports of 
cosmetics in Korea and what future steps we will take to 
improve the prospects for our exporters in the Korean market.





</pre></body></html>
